         Written Testimony of H. David Kotz
               Inspector General of the
         Securities and Exchange Commission




Before the Economic Development, Public Buildings and
Emergency Management Subcommittee of the Committee
         on Transportation and Infrastructure,
             U.S. House of Representatives

               Wednesday, July 6, 2011
                     2:00 p.m.
                                      Introduction

       Thank you for the opportunity to testify before this Subcommittee on the lease of

Constitution Center by the U.S. Securities and Exchange Commission (SEC or

Commission). I appreciate the interest of the Chairman, the Ranking Member, and the

other members of the Subcommittee, in the SEC and the Office of Inspector General

(OIG). In my testimony, I am representing the OIG, and the views that I express are

those of my Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

                        Role of and Reports Issued by the OIG

       The mission of the OIG is to promote the integrity, efficiency and effectiveness of

the critical programs and operations of the SEC. The OIG’s audit unit conducts,

coordinates and supervises independent audits and evaluations related to the internal

programs and operations of the Commission. The Office’s investigations unit conducts

thorough and independent investigations in response to allegations of violations of

statutes, rules, and regulations, and other misconduct by Commission staff and

contractors.

       Over the past three and one-half years since I became the Inspector General of the

SEC, my Office has issued numerous audits and investigative reports involving matters

critical to SEC programs and operations and the investing public. On the audit side,

some of the significant reports we have issued have included an examination of the

Commission’s oversight of Bear Stearns and the factors that led to its collapse, a review

of the SEC’s bounty program for whistleblowers, an analysis of the SEC’s oversight of

credit rating agencies, and audits of the SEC’s compliance with Homeland Security




                                            1
Presidential Directive 12 and its oversight of the Securities Investment Protection

Corporation’s activities. Investigative reports issued during this same period have

addressed a myriad of issues, including the failures of the SEC to uncover the Bernard

Madoff $50 billion Ponzi scheme and the Robert Allen Stanford $8 billion alleged Ponzi

scheme, improper securities trading by Commission employees, conflicts of interest by

Commission staff members, post-employment violations, unauthorized disclosure of

nonpublic information, and procurement violations.

       Many of the reports we have issued have identified costs savings, including

questioned costs and funds that could be put to better use. The OIG has calculated that

for the period from October 1, 2009 through June 30, 2011, the return on investment for

the OIG (i.e., total identified costs savings divided by the OIG’s budget) is 64.2 to 1.

                            The OIG’s Leasing Investigation

       On June 16, 2011, I testified before this Subcommittee about a May 16, 2011

report of investigation we issued into the circumstances surrounding the SEC’s decision

to lease approximately 900,000 square feet of office space at a newly-renovated office

building known as Constitution Center.

       As described in my previous testimony, we opened our investigation on

November 16, 2010, as a result of receiving numerous written complaints concerning the

SEC’s decisions and actions relating to Constitution Center. These complaints alleged

that the decision to lease space at Constitution Center was ill-conceived, resulted from

poor management practices, and was made without Congressional funding for the

significant projected growth necessary to support the decision.




                                              2
       My previous testimony described in detail our investigative efforts, including the

review of over 1.5 million e-mails during the course of the investigation and the

testimony or interviews of 29 individuals with knowledge of facts or circumstances

surrounding the SEC’s leasing activities.

       I also testified concerning the results of our investigation, which found that the

circumstances surrounding the SEC’s entering into a lease for 900,000 square feet of

space at the Constitution Center facility in July 2010 were part of a long history of

missteps and misguided leasing decisions made by the SEC since it was granted

independent leasing authority by Congress in 1990. The investigation further found that

based upon estimates of increased funding, primarily to meet the anticipated requirements

of financial reform legislation that was enacted on July 21, 2010, the Dodd-Frank Wall

Street Reform and Consumer Protection Act (Dodd-Frank), between June and July 2010,

the SEC’s Office of Administrative Services (OAS) conducted a deeply flawed and

unsound analysis to justify the need for the SEC to lease 900,000 square feet of space at

the Constitution Center facility. Specifically, we found that OAS grossly overestimated

(by more than 300 percent) the amount of space needed for the SEC’s projected

expansion and used these groundless and unsupportable figures to justify the SEC’s

commitment to an expenditure of approximately $557 million over 10 years.

       In my earlier testimony, I also described how the OIG investigation found that

OAS prepared a faulty Justification and Approval document to support entering into the

lease for the Constitution Center facility without full and open competition. We

determined that this Justification and Approval document was prepared after the SEC had

already signed the contract to lease the Constitution Center facility. Further, we found




                                             3
that OAS backdated the Justification and Approval, thereby creating the false impression

that it had been prepared only a few days after the SEC entered into the lease when, in

actuality, the Justification and Approval was not finalized until a month later. Additional

details regarding the findings of our leasing investigation were provided in my June 16,

2011 testimony, as well as in the 91-page report of investigation with over 150 exhibits,

which has been provided to the Subcommittee.

                 Recommendations of the OIG’s Leasing Investigation

       Our report of investigation made numerous recommendations designed to ensure

that the requisite improvements to policies and procedures are made and that appropriate

disciplinary action is taken. Specifically, we recommended that the SEC’s Chief

Operating Officer carefully review the report’s findings and conduct a thorough and

comprehensive review and assessment of all matters currently under the purview of OAS

including, but not limited to:

       (1) The adequacy of written policies and procedures currently in place for all
           aspects of the SEC’s leasing program, including, but not limited to, putting in
           place written procedures for leasing approvals;

       (2) The methods and processes utilized to accurately project spacing needs based
           on concrete and supportable data;

       (3) The determination to employ a standard of 400 square feet per person for
           planning agency space needs;

       (4) The necessity of retaining architects, furniture brokers, or other consultants to
           assist in the work generally performed by OAS officials; and

       (5) All pending decisions in which OAS is committing the SEC to expend funds,
           including decisions relating to regional office lease renewals.




                                             4
       We further recommended that the Chief Operating Officer, upon conclusion of

this review and assessment, determine the appropriate disciplinary and/or performance-

based action to be taken for matters related to the findings in this report of investigation,

as well as other issues identified during the review and assessment. We specified that

such disciplinary action should include, at a minimum, consideration of disciplinary

action, up to and including dismissal, against two senior individuals, and consideration of

disciplinary action against a third individual, for their actions in connection with the gross

overestimation of the amount of space needed at SEC Headquarters for the SEC’s

projected expansion, failures to provide complete and accurate information to the

Chairman’s office, and the preparation of a faulty and back-dated Justification and

Approval to support eliminating competition.

       Finally, we recommended that the Office of Financial Management, in

consultation with the Office of General Counsel, request a formal opinion from the

Comptroller General as to whether the Commission violated the Antideficiency Act, by

failing to obligate appropriate funds for the Constitution Center lease.

                                     Follow-Up Efforts

       My Office is committed to following up with respect to all of the

recommendations we made in our report of investigation to ensure that appropriate

changes and improvements are made in the SEC’s leasing operations as a result of our

findings.

       Subsequent to the issuance of our report of investigation on May 16, 2011, my

Office has requested and received a corrective action plan with regard to the substantive

recommendations we made for improvements in the operations of the Office of




                                              5
Administrative Services. We will monitor the planned activities carefully to ensure that

the necessary improvements are made. We have also communicated with the SEC’s

Office of General Counsel with regard to its review of the evidentiary record to determine

appropriate disciplinary action, and have provided the Office of General Counsel with

records requested to assist in those efforts. We intend to monitor the disciplinary process

to ensure that the individuals who we identified as being responsible for the failures and

improprieties described in our report are held appropriately accountable for their actions.

       In addition to these efforts, we have met with the newly-installed acting head of

the Office of Administrative Services to provide additional information concerning the

failings and deficiencies we have identified in that Office. As a result of this briefing, a

large renovation project that had been initiated by the previous head of the Office of

Administrative Services has been discontinued.

       We understand that the Chief Operating Officer, under the direction of Chairman

Schapiro, has already begun to implement the improvements needed in the SEC’s leasing

functions. We are confident that under Chairman Schapiro’s leadership, the SEC will

continue to review our report and take appropriate steps to implement our

recommendations and ensure that fundamental changes are made in the SEC’s leasing

operations so the errors and failings we found in our investigation are remedied and not

repeated in the future.

                                        Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and

the Subcommittee in the SEC and my Office and, in particular, in the facts and

circumstances pertinent to our leasing report. I believe that the Subcommittee’s and




                                              6
Congress’s continued involvement with the SEC is helpful to strengthen the

accountability and effectiveness of the Commission. Thank you.




                                           7
